No. 21IN THE

Supreme Court of the United States
DAKOTA ACCESS, LLC,
Petitioner,
v.
STANDING ROCK SIOUX TRIBE, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 20th day of September, 2021, I caused three copies of the Petition for a Writ
of Certiorari and Appendix Volumes I and II to be served by third-party commercial
carrier on the counsel identified below, and caused electronic versions to be transmitted
to the counsel identified below, pursuant to Rule 29.5 of the Rules of this Court.
I further certify that on this 20th day of September, 2021, I caused one copy of
the Motion for Leave to File Third Volume of Petition Appendix Under Seal and three
copies of the Appendix Volume III to be served by third-party commercial carrier on the
counsel identified below, pursuant to Paragraph 7 of the Guidelines for the Submission
of Documents to the Supreme Court’s Electronic Filing System.
All parties required to be served have been served.

Miguel A. Estrada

Jan Hasselman
Patti A. Goldman
EARTHJUSTICE
810 Third Avenue, Suite 610
Seattle, WA 98104
(206) 343-7349
jhasselman@earthjustice.org
pgoldman@earthjustice.org

Michael L. Roy
Jennifer P. Hughes
Elliott A. Milhollin
HOBBS, STRAUS, DEAN & WALKER, LLP
1899 L Street, N.W.
Suite 1200
Washington, D.C. 20036
(202) 822-8282
mroy@hobbsstraus.com
jhughes@hobbsstraus.com
emilhollin@hobbsstraus.com

Counsel for Standing Rock Sioux Tribe
Rollie E. Wilson
PATTERSON EARNHART REAL BIRD &
WILSON LLP
601 Pennsylvania Avenue, N.W.
Suite 900
Washington, D.C. 20004
(202) 340-8232
rwilson@nativelawgroup.com

Counsel for Oglala Sioux Tribe
Brian H. Fletcher
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Jeremy J. Patterson
Jeffrey Rasmussen
PATTERSON EARNHART REAL BIRD &
WILSON LLP
1900 Plaza Drive
Louisville, CO 80027
(303) 926-5292
jpatterson@nativelawgroup.com
jrasmussen@nativelawgroup.com

Counsel for U.S. Army Corps of
Engineers

Counsel for Yankton Sioux Tribe and
Robert Flying Hawk
Nicole E. Ducheneaux
BIG FIRE LAW & POLICY GROUP
1404 Fort Crook Road South
Bellevue, NE 68005
(531) 466-8725
nducheneaux@bigfirelaw.com
Counsel for Cheyenne River Sioux Tribe
and Steve Vance

2

